   June 19, 2002




Acquisition

Policies and Procedures for
Military Interdepartmental
Purchase Requests at
Washington Headquarters Services
(D-2002-110)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCC-W                Defense Contracting Command-Washington
DFAS                 Defense Finance and Accounting Service
DSS-W                Defense Supply Service-Washington
FMR                  Financial Management Regulation
IAD                  Installation Accounting Division
MIPR                 Military Interdepartmental Purchase Request
NCR                  National Capital Region
SOP                  Standard Operating Procedure
ULO                  Unliquidated Obligation
WHS                  Washington Headquarters Services
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2


Findings
     A. Unliquidated Obligations at Washington Headquarters Services    3
     B. Service Charges for Processing WHS MIPRs                       15

Appendixes
     A. Audit Process
         Scope                                                         19
         Methodology                                                   19
         Management Control Program Review                             20
         Prior Coverage                                                21
     B. WHS MIPRs Selected for Review                                  22
     C. Report Distribution                                            24

Management Comments
     Washington Headquarters Services                                  27
         Office of the Inspector General of the Department of Defense
Report No. D-2002-110                                                 June 19, 2002
  (Project No. D2001CH-0032-001)

          Policies and Procedures for Military Interdepartmental
         Purchase Requests at Washington Headquarters Services

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by personnel
who initiate or accept military interdepartmental purchase requests. The acquisition
process creates unliquidated obligations, and this report shows the importance of
continuously managing and tracking unliquidated obligations.

Background. This report is the second in a series of reports on the use and control of
military interdepartmental purchase requests. This report discusses the management of
military interdepartmental purchase requests at the Washington Headquarters Services.
Military interdepartmental purchase requests are the primary document used by DoD
Components to order goods or services from other DoD Components, as well as other
Government activities outside the DoD. On behalf of OSD customers, Washington
Headquarters Services, as the fundholder, initiates military interdepartmental purchase
requests that are sent to accepting activities for contracting the required goods or
services. Washington Headquarters Services maintains the financial records of
unliquidated obligations for OSD customers. As of March 2001, the Washington
Headquarters Services had 908 military interdepartmental purchase requests, valued at
$290.6 million, with unliquidated obligations of $64.3 million.

Results. Washington Headquarters Services policies and procedures relating to the use
and control of military interdepartmental purchase requests were not adequate. We
judgmentally selected 30 military interdepartmental purchase requests with unliquidated
obligations, totaling $25.9 million, processed during fiscal years 1996 through 2000,
and 21 had problems. Specifically, 14 military interdepartmental purchase requests had
unliquidated obligations balances totaling $9.4 million and were dormant from 365 to
1,820 days (5 years), 7 military interdepartmental purchase requests had unliquidated
obligations that were overstated by a total $2.5 million because disbursement data had
not been posted, 4 military interdepartmental purchase requests had unliquidated
obligations that were overstated by $4.1 million due to accepting activities’ processing
errors, and 5 military interdepartmental purchase requests had potentially invalid
unliquidated obligations totaling $2.7 million due to insufficient recordkeeping by the
accepting activities. The Washington Headquarters Services did not perform the
required tri-annual reviews of obligations and did not allocate adequate staff to perform
funds management. As a result, Washington Headquarters Services had not taken
action to deobligate millions of dollars and put the funds to better use.
Three OSD activities incurred unnecessary service charges totaling $182,762 by
transferring funds to other procurement activities on military interdepartmental
purchase requests rather than using the Defense Supply Service-Washington1. For
details of the audit results, see the Finding section of the report.

Management Comments. The Director, Washington Headquarters Services agreed to
perform a comprehensive review of unliquidated obligations for military
interdepartmental purchase requests. The Director, Budget and Finance Directorate
established a Process Action Team, and the review process had begun and already had
processed some corrective actions. In addition to correcting errors, the team will
identify and document procedures, which will assist in the development of
comprehensive procedures; the procedures will include tri-annual reviews of
unliquidated obligations for all financial documents, not just military interdepartmental
purchase requests. Based on the result of the review, Washington Headquarters
Services stated that it will be able to identify the level of effort required to implement
and staff the program. A memorandum will be issued reminding the Washington
Headquarters Services customer base to use Defense Supply Service-Washington as the
primary contracting office, and the Budget and Finance Directorate and Defense Supply
Service-Washington will jointly establish procedures for the coordination of
procurement actions through Defense Supply Service-Washington and alternative
contracting offices. A discussion of the management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.

Management Actions. In response to our review of unliquidated obligations,
Washington Headquarters Services has taken appropriate action to deobligate about
$5.7 million of invalid unliquidated obligations on four military interdepartmental
purchase requests. Additional funds may be identified when all outstanding
unliquidated obligations are reviewed. The conditions identified were similar to the
conditions cited in the Inspector General of the Department of Defense Audit Report
No. D-2000-104, “Control Over Obligations at Washington Headquarters Services,”
March 22, 2000, and constitute a repeat finding (See Finding section for the complete
discussion of management actions).




1
    Effective November 15, 2001, the Defense Supply Service-Washington was discontinued, and the
    personnel and equipment assigned to the Defense Supply Service-Washington were reassigned to the
    Defense Contracting Command-Washington.



                                                    ii
Background
    This report is the second in a series of reports on military interdepartmental
    purchase requests (MIPRs) within the Department of Defense. This report
    discusses MIPRs issued by the Washington Headquarters Services (WHS).

    Military Interdepartmental Purchase Requests. The DoD uses MIPRs as the
    primary document to order goods or services from other DoD Components, as
    well as other Government agencies. The ordering organization should include
    on the MIPRs a description of the work or services being requested, unit price,
    total price, and a fund cite. The receiving organization (the MIPR accepting
    activity) can either accept the MIPR on a reimbursable or direct cite basis.
    When the receiving organization accepts the funds on a reimbursable basis, the
    ordering organization should record an obligation at the time of acceptance. If
    the receiving organization accepts the funds on a direct cite basis, the ordering
    organization should record an obligation when it is provided a contract or other
    obligating document citing its funds.

    Washington Headquarters Services. WHS is the DoD field activity that
    provides a broad variety of operational and support services to OSD and
    specified DoD Components in the National Capital Region. WHS support
    services include financial management and accounting services, directives and
    records management, civilian and military human resource management,
    personnel security services, office services, physical and information security
    services, law enforcement and protection, and legal services. The Directorate
    for Budget and Finance, Installation Accounting Division (IAD), performs
    allotment-level accounting reporting for WHS. The IAD mission is to provide
    installation-level accounting support for funding appropriations allocated, or
    allotted to, OSD and WHS.

    WHS maintains the official accounting records for funds that it receives. Some
    functions are performed in-house and others are obtained under support
    agreements with the DoD Components. The major agreements are with the
    Defense Finance and Accounting Service (DFAS) for disbursing, travel
    payments, and payroll services. WHS personnel are responsible for accurately
    and promptly recording DFAS disbursements into its accounting system.

    MIPR Process. WHS performs OSD MIPR accounting and reporting. The
    OSD activity program managers provide funds certification requests to WHS,
    who, in turn, prepare outgoing MIPRs to the specific organization (MIPR
    accepting activity) authorizing the transfer of funds. The accepting activity
    prepares an Acceptance of MIPR, which creates an obligation on WHS accounts
    for a reimbursable MIPR. For a direct cite MIPR, the accepting activity must
    award a contract, or other obligating document, to create an obligation in WHS
    accounts. Direct cite MIPRs provide authority to cite the fund grantor’s funds
    (that is WHS) on a contract, which is the obligating document. The accepting
    activity bills WHS for all costs on reimbursable MIPRs. Accordingly, accurate
    accounting records are paramount to ensure accurate fund balances.
     MIPR Statistics. The WHS Installation Accounting Division processed
     3,087 MIPRs valued at more than $810 million for OSD and WHS from
     FYs 1996 through 2000. More than half (1,548) of the 3,087 MIPRs were
     processed in FYs 1999 and 2000. As of March 22, 2001, WHS financial
     records showed unliquidated obligation balances of about $64.3 million for 908
     MIPRs of operations and maintenance funds. The 908 MIPRs were from FYs
     1996 through 2000, and consisted of 399 direct cite MIPRs and 509
     reimbursable MIPRs. The 908 MIPRs supported a wide variety of projects,
     such as software development, environmental mitigation, training, and payroll.

Objectives
     Our audit objective was to evaluate whether military interdepartmental purchase
     request policies and procedures were adequate. We also reviewed the
     management control program as it related to the audit objective. See
     Appendix A for a discussion of the scope and methodology and the review of
     the management control program.




                                        2
            A. Unliquidated Obligations at
               Washington Headquarters Services
            As of March 22, 2001, WHS financial records showed approximately
            $64.3 million in unliquidated obligations (ULOs) related to 908 MIPRs
            from FYs 1996 through 2000 that had a total value of $290.6 million. A
            review of 30 judgmentally selected MIPRs having a total value of
            $86.5 million and ULOs of $25.9 million showed:

               •   Fourteen MIPRs had ULO balances totaling $9.4 million and
                   were dormant from 365 to 1,820 days (5 years);

               •   Seven MIPRs had overstated ULO balances because over
                   $2.5 million in disbursements were not posted;

               •   Four MIPRs had ULO balances overstated by a total of
                   $4.1 million due to accepting activities’ processing errors; and

               •   Five MIPRs had potentially invalid ULOs totaling $2.7 million
                   due to insufficient recordkeeping by the accepting activities.

            These conditions occurred because WHS did not perform the required
            tri-annual reviews of commitments and obligations, did not assign
            adequate staff to ensure proper fund management, did not establish
            polices and procedures to ensure unliquidated obligations were properly
            processed, and did not coordinate with the DFAS to ensure accounting
            records of unliquidated obligations were accurate. As a result, WHS had
            not taken action to deobligate and put funds to better use. During the
            audit, WHS deobligated about $5.7 million of the invalid ULOs on four
            MIPRs.

Criteria for Unliquidated Obligations
     Unliquidated Obligations. ULOs are outstanding obligations or liabilities that
     the Government has recorded in its accounting records. When an agency pays,
     the expenditure is matched to the ULO in the accounting records. All financial
     managers and program managers must be proactively involved in the process of
     managing and clearing ULOs. This is a recurring requirement because certain
     appropriations are canceled or expire on September 30 of every year.
     Recognizing outstanding obligations that are not needed permits the funds to be
     deobligated before they expire, so they can be used for other purposes.

     DoD Financial Management Regulation Guidance. DoD 7000.14-R,
     “Financial Management Regulation,” volume 3, “Budget Execution-Availability
     and Use of Budgetary Resources,” chapter 8, “Standards for Recording and
     Reviewing Commitments and Obligations,” November 2000, requires
     fundholders, with assistance from supporting accounting offices, to review
     commitment and obligation transactions for timeliness, accuracy, and
                                         3
completeness during each of the 4-month periods ending on January 31,
May 31, and September 30 of each fiscal year. The fundholder, as the activity
in the best position to determine the accuracy and the status of ULOs, shall
perform tri-annual reviews, as a minimum, for ULOs of $50,000 and more for
operating appropriations, such as operation and maintenance; and, $200,000 for
investment appropriations, such as procurement. All other obligations not
addressed in the regulation shall be reviewed at least annually. According to a
March 12, 2001, WHS memorandum entitled “Certification of Thrice Yearly
Review of Commitments and Obligations,” the WHS Installation Accounting
Division within the Budget and Finance Directorate is both the fundholder and
the accounting office.

Fund Management Guidance. Fundholders need to monitor ULOs to ensure
that, in accordance with the DoD 7000.14-R, “Financial Management
Regulation,” agencies maintain obligations only for orders with a valid
requirement. If additional funds are required to complete the original
requirements, requiring activities can make upward obligational adjustments to
contract funds after funds are deobligated. This occurs after the appropriation
has expired and is no longer available for new obligations. Obligational
adjustments are discussed in DoD 7000.14-R, volume 3, chapter 10 and
chapter 15. The Financial Management Regulation (FMR) states that for
5 years after the time an appropriation expires for incurring new obligations,
both the obligated (which includes ULOs) and unobligated balances of that
appropriation will be available for recording, adjusting, and liquidating
obligations properly chargeable to that account. The FMR further states that
separate accounts are required for each expired fixed appropriation to be
maintained by its fiscal year identity for 5 years following the appropriation’s
period of availability for obligation. During this 5-year period, obligations may
be adjusted upward and downward, and disbursements may be made from these
expired appropriations. Excess obligations that are later deobligated are
accounted for in the same manner as repayments. The difference is that the
excess obligations are already in the expired account. Deobligated amounts that
are not needed to liquidate recorded obligations should be accounted for under
the “unobligated balance” portion of the expired account, according to a
General Accounting Office, Office of the General Counsel publication entitled,
“Principles of Federal Appropriations Law,” volume I, July 1991. Thus, when
WHS deobligates funds, the funds are carried as expired and can be used for
appropriate obligational adjustments for the years of their availability.

Annual Memorandum to Defense Agencies. Since May 14, 1996, the Deputy
Comptroller (Program/Budget) in the Office of the Under Secretary of Defense,
Comptroller, distributes an annual memorandum, reminding each of the Defense
Agencies to provide a written confirmation statement attesting to the completion
of tri-annual reviews in accordance with DoD Regulation 7000.14-R, volume 3,
chapter 8. Written confirmation statements are due to the Director for Program
and Financial Control, Office of the Deputy Comptroller (Program/Budget)
within 45 days after each quarter. Although issued annually, the most recent
memorandum, “Thrice Yearly Review of Commitment and Obligations,” was
issued on February 22, 2001.

                                    4
    Statement of Certification for Tri-annual Reviews. In compliance with the
    Deputy Comptroller (Program/Budget) memorandum dated February 22, 2001,
    WHS issued a February 27, 2001, memorandum requiring the WHS Budget and
    Finance Directorate, Installation Accounting Division, to provide written
    certification regarding a January 31, 2001, review of commitments and
    obligations, applying to all appropriated funds (direct and reimbursable)
    received from WHS, which expired in FYs 1996 through 2000. On March 12,
    2001, the Chief, Budget and Finance Directorate, the WHS Installation and
    Accounting Division issued a qualified statement of certification regarding a
    March 2001 review of commitments and obligations that stated:
               In the absence of a formalized program within Budget and Finance
               regarding these reviews, it is impossible for my office to certify to a
               full and complete review of all funds suballocated to it.

    WHS reviewed the account balances as of January 31, 2001, for interagency
    agreements valued at $89.1 million, and open commitments of $115.2 million.
    Additionally, $51.8 million in interagency-agreement ULOs were reviewed to
    ensure no negative balances were reported.

    Inspector General of the Department of Defense Audit Report, Report No.
    D-2000-104. This report, “Control Over Obligations at Washington
    Headquarters Services,” March 22, 2000, states that WHS had not established
    formal procedures to implement DoD guidance on required reviews of ULOs.
    As of June 14, 2001, WHS accounting personnel stated that they still had not
    completed the reviews because WHS did not have sufficient resources to fully
    implement the guidance on required reviews of obligations. WHS had added
    “Review of Unliquidated Obligations” as an assessable unit to its Internal
    Management Control Program and had completed a vulnerability assessment in
    March 2001.

    WHS also implemented two programs in response to audit followup, that
    provide responsible officials with the necessary data to perform ULO reviews.
    One program lists all outstanding commitments and provides an aging
    capability, and the second program details accounting information on all ULOs
    for more than $50,000. Because the dates of the implementation of the WHS
    initiatives coincided with the performance of our audit, we were unable to
    determine any positive effect of the WHS procedures on reducing ULOs. The
    conditions identified in this finding are similar to the conditions identified in
    Report No. D-2000-104 and constitute a repeat finding.

Dormant Unliquidated Obligations
    MIPR ULOs at WHS. WHS financial records showed that as of March 22,
    2001, there were 908 MIPRs, valued at more than $290.6 million, issued from
    FYs 1996 through 2000, that had ULOs of $64.3 million. Table 1 describes the
    908 MIPRs.


                                             5
    Table 1. WHS MIPRs with ULOs FYs 1996 through 2000, as of March 22, 2001
                                 ($ millions)


                                                              Total
                                                           Obligations   Amount of
         Fiscal Year               No. of MIPRs             on MIPRs       ULOs
            1996                         45                  $ 34.2       $ 4.2

            1997                         98                       46.1       8.4

            1998                       155                        46.0       5.7

            1999                       253                        69.8      12.1

            2000                       357                        94.5      33.9

            Totals                     908                   $290.6       $64.3


           MIPRs Reviewed. We judgmentally selected 30 of the 908 MIPRs (15 from
           FY 2000 and a total of 15 from FYs 1996 through 1999) with substantial ULOs.
           Overall, the 30 selected MIPRs included $86.5 million in funds. See
           Appendix B for the MIPRs selected. The FY 2000 MIPRs we selected each had
           a value of $880,000 or more, and the MIPRs we selected from FY 1996 through
           1999 each had a value of $200,000 or more. Of the 15 MIPRs reviewed that
           were issued from FYs 1996 through 1999, 14 with ULOs2, totaling
           $9.4 million, were dormant from 365 to 1,820 days (nearly 5 years) (see
           Table 2).




2
    Judgment sample percentage does not generalize to universe.
                                                     6
                     Table 2. Dormant MIPRs with ULOs ($ millions)

Days                                                                                  Total Amount
Dormant1                      MIPRs Reviewed            MIPR Amount                     of ULOs
More than 1,000 days                  5                     $18.4                         $6.0

500 to 999 days                       7                       12.3                         2.8

365 to 499 days                       2                        8.7                         0.6

Totals                               14                     $39.4                         $9.4

1
 A dormant MIPR is a MIPR showing a ULO that has not had any transaction activity for more than 365
days (measured from the date of the last transaction to March 22, 2001, the cutoff date we used to query
the ULO database).



         None of the 15 MIPRs issued in FY 2000 were considered dormant because
         each of the 15 had activity within one year. WHS had not validated the ULOs
         on the dormant MIPRs because of inadequate staffing, lack of written
         procedures, and inadequate coordination with accepting activities. Nine MIPRs
         selected, valued at $34.3 million, had no identified problems.

         Staffing of the Budget and Finance Directorate, Installation Accounting
         Division. WHS officials cited insufficient staff as the principal reason they had
         not performed the tri-annual validation reviews. However, WHS officials could
         not document specific staffing requirements or cite formal requests for staff
         augmentation for the Installation Accounting Division. The only documentation
         that WHS officials provided related to staffing vacancies was the “FY 2000
         Installation Accounting Division Workload Indicators,” showing 15 staff
         positions were filled out of 18 total authorized.

         Written Procedures and Metrics for the WHS Budget and Finance
         Directorate. WHS officials also stated that they had not established formal
         procedures on how to perform tri-annual reviews and had no written procedures
         specific to WHS regarding the use and control of MIPRs. Although WHS has
         experienced personnel processing MIPRs, formal internal procedures that
         further expand on existing DoD criteria would provide for consistency in
         processing and deobligating MIPRs and reduce excessive dependence on
         corporate knowledge vested in a few key personnel. Establishment of
         performance metrics on the validation of ULOs would improve accountability
         and resource management.




                                                   7
         Coordination with Accepting Activities. WHS had not corresponded within
         the last 6 months with any of the 22 activities accepting the 30 judgmentally
         selected MIPRs to facilitate the validation of the ULOs. WHS had no
         procedures to follow up with accepting activities on dormant ULOs. The
         absence of this communication further evidences that WHS had not performed
         tri-annual reviews. WHS must coordinate with accepting activities to resolve
         and prevent dormant ULOs.

         ULOs Deobligated. During our audit, WHS reviewed the 14 MIPRs shown in
         Table 2 and deobligated approximately $5.7 million for 4 MIPRs that were
         dormant from 389 days up to 1,651 days, as shown in Table 3. However, if



            Table 3. MIPR ULOs Deobligated by WHS as a Result of Audit


                          Accepting          Fiscal               Amount           Days
 MIPR Number              Activity           Year                Deobligated      Dormant

 DSAM60119                DFAS               1996                $1,721,980        1,651

 DHAM60217*               DFAS               1996                   500,000        1,632

 DSAM70003                DFAS               1997                  3,226,000       1,064

 DSAM90008                DIA                1999                   279,797         389

 Total                                                           $5,727,777

 DFAS–Defense Finance and Accounting Service
 DIA–Defense Intelligence Agency

 *
     MIPR was not part of the audit sample but was identified by WHS personnel.


         WHS had performed timely ULO reviews, those funds could have been
         available to satisfy other missions and needs. Further, WHS needs to review all
         ULOs to identify other opportunities to deobligate funds.

Disbursement, Processing, and Recordkeeping Errors
         DFAS not transferring MIPR disbursement data to WHS, processing errors by
         MIPR accepting activities, and recordkeeping errors by accepting activities
         contributed to inaccurate accounting records at WHS.

         Unmatched DFAS Disbursement Data. WHS records incorrectly showed
         $2.5 million in ULOs for seven MIPRs (Table 4). DFAS had previously made
                                           8
         the disbursements, so the ULOs were overstated. WHS officials stated that the
         electronic transfer of DFAS disbursements to WHS was a recurring problem.
         Tri-annual reviews by WHS would have identified these unmatched
         disbursements. WHS officials attributed the problem to DFAS accounting
         errors.

         When WHS adjusts its accounting records for the disbursements, the ULO
         balances will decrease from $2.5 million to $7,000.



                Table 4. Disbursements by DFAS Not Reported to WHS

                                                       ULO Balance at
MIPR                   Accepting                         WHS as of         Correct ULO         No. Days
Number                 Activity                        March 22, 2001        Balance           Dormant*

DHAM60007              DISA                              $ 293,426            $6,574                  15

DSAM80039              CECOM                               187,382                  0                916

DSAM70225              NRISO (SPAWAR ITC)                  898,385                  0                596

DSAM90053              NDU                                 240,000                  0                776

DSAM60112              NSWC                                186,723                  0                874

DSAM60084              DAPS                                528,000                426              1,679

DSAM60033              DISA                                200,000                  0              1,820

Total                                                   $2,533,916            $7,000

DISA–Defense Information Systems Agency
CECOM–U.S. Army Communication-Electronics Command
NRISO–Naval Reserve Information Systems Office, currently the Space and Naval Warfare Information
         Technology Center
NDU–National Defense University
NSWC–Naval Surface Warfare Center
DAPS–Document Automation and Production Service

*
 Number of days elapsed between the date of the last transaction activity and March 22, 2001 (the cutoff
date we used to query the WHS ULO database).




                                                   9
         Processing Errors by Accepting Activities. Four accepting activities
         incorrectly processed four MIPRs, resulting in a total of $4.1 million in
         overstated ULO balances, as shown in Table 5. This affected the accuracy and
         reliability of the accounting records, specifically preventing:

         •   billing documentation preparation,

         •   timely processing of the acceptance of MIPR, and

         •   accurate job order coding into the accepting activity accounting system.


          Table 5. Processing Errors that Prevented WHS from Being Billed


MIPR                Accepting                   Accepting Activity             Correct ULO
Number              Activity                     ULO Amount                      Amount

DHAM70122           DITCO                            $ 362,993                      $ 7

DSAM90008           DIA                                 279,797                         0

DSAM00005           COMNAVRESFOR                        872,677                     121

DSAM00401           497th IOG (AFIAA)                 2,550,000                         0

Totals                                               $4,065,467                    $128

DITCO–Defense Information Technology Contracting Organization
DIA–Defense Intelligence Agency
COMNAVRESFOR–Commander, Naval Reserve Force
497th IOG–Information Operations Group, currently the Air Force Intelligence Analysis
  Agency (AFIAA)



                 Defense Information Technology Contracting Organization. The
         Defense Information Technology Contracting Organization (DITCO) used a
         manual tracking and billing process for MIPR number DHAM70122, issued
         June 30, 1997, funding the Electronic Commerce and Electronic Data
         Interchange within DITCO. Consequently, DITCO did not prepare the required
         documentation to bill WHS, causing the ULO to remain dormant for
         1,345 days. DITCO, in a March 29, 2001, memorandum stated, “Based on this
         audit identifying the Unliquidated Obligation (ULO), DITCO generated a bill
         for $362,993.40, which WHS will receive in April 2001.” DFAS disbursed
         $362,993.40 on April 17, 2001. Tri-annual validation of the ULO would have
         flagged this delay in billing, and DITCO would have immediately noted the
         problem.


                                                10
       Defense Intelligence Agency. This MIPR related to civilian payroll.
The Defense Intelligence Agency (DIA) did not timely notify WHS that it did
not need $279,797 in funds. WHS identified this problem and issued an
amended MIPR DSAM90008 on March 8, 2001, for $279,797 to withdraw the
funds, and DIA signed the Acceptance of MIPR on March 14, 2001.

       Commander, Naval Reserve Force. The Commander, Naval Reserve
Force (COMNAVRESFOR) incorrectly coded the job order into the Standard
Accounting and Reporting System–Field Level as a ULO of $872,677 associated
with MIPR DSAM00005, issued September 23, 1999, for the reimbursement of
temporary detail of COMNAVRESFOR personnel. The correct ULO was
$121. WHS records also reflected the correct ULO.

        Air Force Intelligence Analysis Agency. The Air Force Intelligence
Analysis Agency (AFIAA), formerly the 497th Information Operations Group,
did not process a payment of $2,550,000 for MIPR DSAM00401, issued
September 27, 2000, for supporting the Joint Personnel Adjudication System to
complete software development, testing, training, data conversion, and
documentation. The AFIAA confirmed a ULO amount of $2,550,000 on
May 25, 2001. The official responsible for deobligating the ULO retired before
taking any action. After several inquiries by the auditors, the AFIAA
deobligated the ULO on November 1, 2001.

Recordkeeping by Accepting Activities. Accepting activities could not verify
the accuracy of a total of $2.7 million in ULOs shown on WHS records for five
direct cite MIPRs, as shown in Table 6. According to DoD Regulation
7000.14-R, volume 3, chapter 8, the accounting office is required to provide
assistance in reviewing commitment and obligation transactions. Further, a
March 12, 2001, WHS memorandum on “Certification of Thrice Yearly Review
of Commitments and Obligations,” states that the FMR:

           ...clearly intends that “the office that initiated the requirement that led
           to the commitment (or obligation) shall be required to participate in
           the review.”

Therefore, in these and similar situations, both the accepting and initiating
activities as well as DFAS should participate in reviewing ULO balances.




                                          11
Table 6. Activities with Insufficient Recordkeeping to Track ULO Funds



MIPR                    Accepting          ULO Balance        Accepting Activity           ULO Balance
Number                  Activity            per WHS            ULO Balance                  per DFAS

DSAM70029               SBCCOM             $ 358,739                 $1,2351                       $0

DHAM00001               DIA                    965,362            Unverified                   36,331

DSAM00085               SMC                    204,038            Unverified                         0

DSAM00127               RMAC                   325,039            Unverified          Undeterminable2

DSAM00210               FISC                   887,815            Unverified                  297,389

                         Total              $2,740,993

SBCCOM–U.S. Army Soldier and Biological Chemical Command
DIA–Defense Intelligence Agency
SMC–Space and Missile Command
RMAC–U.S. Army Robert Morris Acquisition Center
FISC–Fleet and Industrial Supply Center

1
    The reimbursable portion of the MIPR was $1,235. The direct cite portion of the MIPR was unverified.
2
    Undeterminable due to delivery orders having multiple sources of funding.



                   U.S. Army Soldier Biological Chemical Command. Solider Biological
           Chemical Command (SBCCOM) could not confirm the ULO amount associated
           with the direct cite portion of the MIPR. SBCCOM officials stated that the
           direct cite portion of the MIPR was not in the SBCCOM accounting system. As
           a result, SBCCOM could only verify an ULO of $1,235 out of $358,739 on
           MIPR DSAM70029, issued November 5, 1996, for funding body armor.
           Inquiries with DFAS showed that no ULO balance existed.

                  Defense Intelligence Agency. DIA could not confirm the ULO of
           $965,362 for MIPR DHAM00001. This direct cite MIPR was issued
           September 24, 1999, in support of the Persian Gulf Action Team. To further
           determine the ULO amount, we contacted DFAS. Inquiries with DFAS showed
           the ULO balance was $36,331.

                  Space and Missile Command. Space and Missile Command (SMC)
           could not confirm the ULO of $204,038 because they did not maintain ULO
           balances on direct cite MIPRs. SMC only accepts the MIPR and obligates the
           funds on a contract. As a result, SMC could not verify the ULO on
                                              12
    MIPR DSAM00085, issued January 5, 2000, for intelligence, surveillance, and
    reconnaissance system support. SMC contacted an official in the Office of the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) to confirm the ULO amount. The OSD official provided the ULO
    status from WHS, as of June 7, 2001. SMC should have the capability to report
    the status of the ULO to WHS upon request. Inquiries with DFAS showed that
    no ULO balance existed.

            U.S. Army Robert Morris Acquisition Center. The Robert Morris
    Acquisition Center, Aberdeen Proving Ground, Maryland, could not confirm
    the ULO of $325,039 because many of the initial orders or modifications had
    multiple MIPRs or sources of funding. As a result, they could not verify an
    ULO on MIPR DSAM00127, issued February 4, 2000, for support of the Joint
    Central Analytic Group, using direct cite funds. Robert Morris Acquisition
    Center officials stated that they could not confirm the ULO unless they knew
    which delivery orders and modifications were associated with MIPR
    DSAM00127. Inquiries to DFAS showed the ULO balance could not be
    confirmed because this MIPR funded only a portion of the total contract
    obligation. Different funding sources could not be distinguished from each
    other.

           Fleet and Industrial Supply Center-Hampton Roads. MIPR
    DSAM00210 issued March 24, 2000, was for field-level technical support for
    the Native American Lands Environmental Mitigation Program, using direct cite
    funds. The Fleet and Industrial Supply Center could not confirm the ULO
    amount of $887,815 because it did not account for ULO funding. The Fleet and
    Industrial Center Supply Center only accepts the MIPR, awards the contract,
    and assigns a payment office. The Fleet and Industrial Supply Center contacted
    the contractor, who was also unable to confirm the ULO. Inquiries with DFAS
    showed the ULO balance was $297,389.

Conclusion
    ULOs, if not periodically validated, can result in overstated liabilities and loss
    of funds available for other missions and needs. Because the number of MIPRs
    that WHS processes is increasing annually, WHS should implement a formal
    program to identify, resolve, and deobligate ULOs accurately and timely. Such
    an effort would correct the noted accounting deficiencies.




                                        13
Recommendations and Management Comments
    A. We recommend that the Director, Washington Headquarters Services
    direct the Budget and Finance Directorate to:

           1. Establish a quick reaction team to review unliquidated obligations
              for military interdepartmental purchase requests and deobligate
              funds that are no longer needed. Provide the Office of the
              Inspector General of the Department of Defense the results of this
              effort.

           2. Post all disbursements and correct all errors related to military
              interdepartmental purchase requests in the accounting records.

           3. Develop written operating procedures and metrics for:

              (a) processing military interdepartmental purchase requests,

              (b) performing tri-annual validation reviews of unliquidated
              obligations, and

              (c) deobligating unliquidated obligations.

           4. Perform a review of the staffing needs of the Installation
              Accounting Division, Budget and Finance Directorate and assign
              the resources necessary to ensure successful certification of tri-
              annual reviews and the deobligation of future unliquidated
              obligations.

           5. Request that the Director, Defense Finance and Accounting
              Service, jointly develop written procedures to ensure that military
              interdepartmental purchase request disbursement data is
              provided to Washington Headquarters Services accurately and
              timely.

    Management Comments. Washington Headquarters Services concurred and
    stated that it established a Process Action Team to perform a comprehensive
    review of unliquidated obligations for military interdepartmental purchase
    requests; the review had begun, and corrective actions were being taken. The
    Process Action Team’s review began with the oldest appropriations and MIPRs
    with large unliquidated obligation dollar amounts, and coordinate these
    transactions with accepting activities, program offices, and the Defense Finance
    and Accounting Service disbursing offices. The results of the Process Action
    Team will assist in assessing implementation and staffing needs of the program
    and development of comprehensive procedures, which will include the tri-annual
    reviews of unliquidated obligations for all financial transactions, not just
    military interdepartmental purchase requests. Estimated completion date is
    December 31, 2002.

                                       14
                    B. Service Charges for Processing WHS
                       MIPRs
                    OSD activities that initiated MIPRs did not select the most economical
                    procurement alternative for 3 MIPRs selected from a judgmental sample3
                    of 30 MIPRs. This occurred because those activities were unaware of
                    the requirement of DoD Directive 5335.2 to use the contracting services
                    of the Defense Supply Service-Washington (DSS-W) to the maximum
                    extent practicable before selecting alternative accepting activities to
                    process MIPRs. As a result, OSD activities incurred $182,762 in
                    unnecessary service charges assessed for processing three MIPRs.

Defense Supply Service-Washington
           DoD Directive 5335.2, “Defense Supply Service–Washington (DSS-W)4,” dated
           April 21, 1993, states that DoD Components located within the National Capital
           Region (NCR) shall use the contracting and other services of DSS-W to the
           maximum extent practicable, consistent with the Directive. DSS-W provides
           contractual support and guidance, on a non-reimbursable basis, to all DSS-W
           customers in the NCR. However, the Directive does not restrict individual
           agencies from using alternative contracting assistance. Three exceptions from
           the requirements of the Directive are: (1) technical expertise from another DoD
           organization, (2) timeliness of the procurement is an extenuating factor, and
           (3) efficient procurement exists with an ongoing contract.

WHS Customers
           WHS serves DoD Components in the NCR, such as activities within the OSD
           that request funding services involving MIPRs. Nearly 200 OSD activities exist
           for which WHS performs installation-level accounting support. Other DoD
           Components receiving WHS support include WHS, the U.S. Court of Appeals
           for the Armed Forces, the Deputy Under Secretary of Defense (Test and
           Evaluation), and the Director of Operational Test and Evaluation, Defense.




3
    Judgment sample percentage doe not generalize to universe.
4
    Effective November 15, 2001, the Defense Supply Service-Washington was discontinued, and the
    personnel and equipment assigned to the Defense Supply Service-Washington were reassigned to the
    Defense Contracting Command-Washington.

                                                     15
MIPR Service Charges
           Of the 30 judgmentally selected5 MIPRs selected for review, 3 MIPRs had a
           total of $182,762 in service charges assessed by 3 accepting activities shown in
           Table 7.


                        Table 7. Service Charges for Processing MIPRs


MIPR                     Initiating           Accepting        MIPR
Number                   Activity             Activity        Amount           Service Charge

DSAM70225                DUSD (P&R)           NRISO          $2,500,000          $131,021
                                              (SPAWAR ITC)

DSAM80039                OUSD                 CECOM            250,000                  1,775
                         (AT&L)

DSAM00134                DUSD (I&E)           NFESC           4,181,000             49,966

Total                                                        $6,931,000          $182,762

OUSD (AT&L)–Office of the Under Secretary of Defense for Acquisition, Technology, and
                Logistics (Deputy Under Secretary for Science and Technology)
DUSD (P&R)–Deputy Under Secretary of Defense for Personnel and Readiness
DUSD (I&E)–Deputy Under Secretary of Defense for Installations and Environment
NRISO–Naval Reserve Information Systems Office, currently the Space and Naval Warfare
         Information Technology Center
NFESC–Naval Facilities Engineering Service Center




Reasons DSS-W Was Not Used
           We contacted each MIPR initiating activity identified in Table 7 to determine
           the reasons DSS-W was not used. The initiating activities of the three MIPRs
           were unaware of the requirements specified in DoD Directive 5335.2 that
           DSS-W be used to the maximum extent practicable. Other reasons for selecting
           other contracting organizations included the following.

           •    The customer specified a software development organization for
                DSAM70225, issued July 3, 1997, in support of the Military Personnel
                Management Joint Military Personnel Pay System.


5
    Judgment sample does not generalize to universe.

                                                       16
    •   The Deputy Under Secretary of Defense (Environmental Security)
        designated the Navy as the executive agent for DSAM00134, issued
        February 8, 2000, that provided funds supporting the Arctic Military
        Environment Cooperation Project.

    •   A task force selected the MITRE Corporation, which had established an
        existing contract with the U.S. Army Communication-Electronics Command
        for DSAM80039, issued December 19, 1997, that funded an Open System
        Joint Task Force project.

Capability of DSS-W to Provide Support
    A DSS-W official reviewed the requirements of the three MIPRs shown in
    Table 7, and concluded that the MIPRs could have been contracted through
    DSS-W. This official based the conclusion on the fact that the requirements
    were similar to other work handled by DSS-W. As a result, the OSD MIPR
    initiating activities incurred unnecessary costs totaling $182,762 because they
    did not use DSS-W. To comply with the intent of DoD Directive 5335.2, OSD
    MIPR initiating activities should consider DSS-W support before selecting other
    contracting organizations.

Conclusion
    OSD MIPR initiating activities could avoid unnecessary service charges by
    using services provided by DSS-W to the maximum extent practicable. These
    activities should be required to consult DSS-W before WHS processes their
    MIPRs.

Recommendations
    B. We recommend that the Director, Administration and Management,
    Office of the Secretary of Defense:

           1. Issue a memorandum reminding all DoD components and
              programs that request Washington Headquarters Services
              allotment-level accounting and reporting services to first consider
              Defense Contracting Command-Washington as stipulated in DoD
              Directive 5335.2, prior to requesting support from alternative
              accepting activities to process military interdepartmental
              purchase requests.

           2. Establish procedures requiring Washington Headquarters
              Services customers to consult with Defense Contracting
              Command-Washington prior to receiving contracting support for
              military interdepartmental purchase requests from other
              contracting organizations.


                                       17
Management Comments. Washington Headquarters Services concurred and
stated that a memorandum will be issued reminding the Washington
Headquarters Services customer base to use the Defense Contracting
Command-Washington as the primary contracting office, in accordance with
DoD Directive 5335.2. Washington Headquarters Services also agreed to
establish procedures for the coordination of procurement actions through the
Defense Contracting Command-Washington and alternative contracting offices.
Estimated completion date is September 30, 2002.




                                  18
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the use and control of MIPRs by WHS. We
    reviewed MIPRs for the OSD and WHS by analyzing MIPR transactions and
    ULOs from the WHS Allotment Accounting System. Of 908 total MIPRs, we
    judgmentally selected 30 MIPRs (15 from FY 2000 and a total of 15 from
    FYs 1996 through 1999) with substantial ULOs to determine the validity of the
    remaining ULOs, valued at $25.9 million, as reported on WHS records as of
    March 22, 2001. We interviewed members of the WHS Installation Accounting
    Division, Budget and Finance Directorate. We also contacted DFAS officials
    regarding the ULO balances and the accuracy of the accounting records.

    We requested documentation from 22 accepting activities confirming the ULO,
    as reported by WHS, clarifying why the MIPR remained dormant, requesting
    any service charges assessed for processing the MIPR, and requesting any
    correspondence between each accepting activity and WHS during the last
    6 months to facilitate the validation of the ULO by WHS.

    The documents cover FYs 1996 through 2000, encompassing the period from
    October 1, 1995, through November 30, 2001. We verified the validity of the
    ULOs we selected by contacting each of the accepting activities identified on the
    MIPR. As the fundholder, WHS sends funds, through outgoing MIPRs, to
    activities that contract for services stated on the MIPR. We requested each
    activity verify that the ULO as stated in WHS records was correct. See
    Appendix B for the MIPRs we reviewed.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management and Contract Management high-risk areas.

Methodology
    Use of Technical Assistance. We discussed the rationale and methodology by
    which we selected our judgmental sample with Operations Research Analysts
    from the Quantitative Methods Division, Office of Inspector General of the
    Department of Defense.

    Use of Computer-Processed Data. We used WHS computer-processed data.
    We obtained information on obligations, disbursements, and ULOs from the
    WHS Allotment Accounting System. However, as shown in the report,
    balances of unliquidated obligations could not be relied upon because the
    accounting records did not correctly show all disbursements made.



                                       19
    Audit Dates and Standards. We performed this audit from January 2001
    through November 2001, in accordance with generally accepted government
    auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the process that WHS used to review
    and deobligate ULOs. Specifically, we reviewed WHS management controls
    over timely deobligation, written guidance for deobligating ULOs, and the
    performance of tri-annual reviews. We reviewed management’s self-evaluation
    applicable to those controls. We also reviewed WHS actions to comply with
    recommendations made in Inspector General of the Department of Defense
    Report No. D-2000-104, “Controls Over Obligations at Washington
    Headquarters Services,” March 22, 2000. For one recommendation, the
    Technical Director, Audit Followup and GAO Affairs Division, Office of the
    Inspector General of the Department of Defense, requested that WHS provide a
    copy of the completed vulnerability assessment for the Review of Unliquidated
    Obligations assessable unit by March 12, 2001. We reviewed the vulnerability
    assessment completed by WHS.

    Adequacy of Management Controls. We identified management control
    weaknesses, as identified by DoD Instruction 5010.40. WHS had not
    implemented management controls to ensure the timeliness of deobligating
    ULOs. There was no written guidance to ensure WHS reviews and deobligates
    ULOs. WHS had not performed tri-annual reviews of commitments and
    obligations applicable to ULO balances on MIPR funds. Recommendations A.1
    through A.5, if implemented, will assist in correcting the cited weaknesses. A
    copy of the report will be provided to the senior official responsible for
    management controls at WHS.

    Adequacy of Management’s Self-Evaluation. The WHS Directorate for
    Budget and Finance Internal Management Control Plan follows the OMB
    Circular A-123, DoD Directive 5010.38, and DoD Instruction 5010.40. The
    vulnerability assessment conducted by WHS officials stated the general control
    environment, inherent risk, and control safeguards were at low risk. The WHS
    self-evaluation was not adequate because it did not identify or report on the
    weaknesses identified by the audit.


                                       20
    Invalid ULOs and unmatched disbursements are a serious problem because
    accounting records did not reflect an accurate financial position, which caused
    reported fund balances to be overstated while actual available balances are
    understated.

Prior Coverage
    Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

    IG DoD Report No. D-2000-104, “Control Over Obligations at Washington
    Headquarters Services,” March 22, 2000
    Air Force
    Air Force Audit Agency Report No. 99062007, “Use and Control of Military
    Interdepartmental Purchase Requests,” December 11, 2000




                                       21
Appendix B. WHS MIPRs Selected for Review


     FY 1996
                                Date                                     Confirmed     Days ULO
     MIPR         Accepting    MIPR         MIPR       ULO Amount          ULO         Dormant at
     Number       Activity     Issued      Amount        per WHS          Amount         WHS
1    DHAM60007    DISA        10/13/95    $1,500,000   $ 293,426 1        $ 6,574              15
2    DSAM60033    DISA         2/29/96       200,000       200,000 1               0        1,820
3    DSAM60084    DAPS         5/23/96       528,000       528,000 1            426         1,679
4    DSAM60112    NSWC         7/29/96     4,839,789       186,723 1               0          874
5    DSAM60119    DFAS         7/31/96     1,721,980     1,721,980 2      1,721,980         1,651
     Totals                               $8,789,769    $2,930,129       $1,728,980



     FY 1997
                                Date                                     Confirmed    Days ULO
     MIPR        Accepting     MIPR         MIPR       ULO Amount          ULO        Dormant at
     Number      Activity      Issued      Amount        per WHS          Amount        WHS
6    DSAM70003   DFAS         10/16/96   $15,600,000    $3,226,000 2     $3,226,000        1,064
7    DSAM70029   SBCCOM        11/5/96     3,513,000       358,739            1,235 5        665
8    DHAM70122   DITCO         6/30/97       363,000       363,000 3        362,993        1,345
9    DSAM70225   NRISO          7/3/97     2,500,000       898,385 1               0         596
     Totals                              $21,976,000    $4,846,124       $3,590,228



     FY 1998
                                Date                                     Confirmed     Days ULO
     MIPR        Accepting     MIPR        MIPR        ULO Amount          ULO         Dormant at
     Number      Activity      Issued     Amount        per WHS           Amount         WHS
10   DSAM80078   DAPS           2/4/98     $222,000      $182,683          $182,683          874
11   DSAM80039   CECOM        12/19/97      250,000       187,382 1                0         916
     Totals                                $472,000      $370,065          $182,683


     FY 1999
                                Date                                     Confirmed     Days ULO
     MIPR        Accepting     MIPR        MIPR        ULO Amount          ULO         Dormant at
     Number      Activity      Issued     Amount         per WHS          Amount         WHS
12   DSAM90053   NDU           12/8/98   $ 240,000      $ 240,000 1               0          776
13   DSAM90008   DIA          10/29/98    7,211,000        279,797 2,3            0          389
14   DSAM90119   AFRL          2/16/99    1,503,000        352,712       $ 352,712           423
15   DSAM90158   XPX           3/19/99      735,000        735,000 4        735,000          573
     Totals                              $9,689,000     $1,607,509       $1,087,712




                                         22
         FY 2000
                                             Date                                    Confirmed     Days ULO
         MIPR              Accepting        MIPR           MIPR       ULO Amount       ULO         Dormant at
         Number            Activity         Issued        Amount        per WHS       Amount        WHS 6
    16   DSAM00005         NAVRESFOR        9/23/99     $ 880,436      $ 880,436 3,7 $      121       n/a
    17   DHAM00001         DIA              9/24/99       3,183,181        965,362 3  unverified      n/a
    18   DHAM00030         NSA              11/9/99       1,939,783        262,954      133,694       n/a
    19   DSAM00014         DIA             10/14/99       6,025,000        161,860             0      n/a
    20   DSAM00053         AFRL             12/3/99       6,450,000        423,825      423,825       n/a
    21   DSAM00054         DFAS             12/3/99       8,385,555      1,209,702             0      n/a
    22   DSAM00070         ARDEC           12/22/99       1,783,632      1,503,074      332,222       n/a
    23   DHAM00055         NISA-P          12/30/99       2,282,000      1,692,406 4    645,637       n/a
    24   DSAM00085         SMC               1/5/00       1,987,000        204,038    unverified      n/a
    25   DSAM00127         USAMCAC           2/4/00       1,720,000        325,039    unverified      n/a
    26   DSAM00134         NFESC             2/8/00       4,181,000      1,898,976        4,786       n/a
    27   DSAM00210         FISC             3/24/00         900,000        887,815 3  unverified      n/a
    28   DSAM00243         PBA              4/28/00       1,253,000      1,176,355    1,176,355       n/a
    29   DHAM00134         WHS              6/26/00       2,049,000      2,049,000    2,049,000       n/a
    30   DSAM00401         497th IOG        9/27/00       2,550,000      2,550,000    2,550,000       n/a
         Totals                                         $45,569,587   $16,190,842    $7,315,640

         Overall Total                                  $86,496,356   $25,944,669




1
    Goods and services paid for, but disbursements were not recorded in WHS accounting records.
2
    MIPRs selected, as of February 20, 2001, that were deobligated as a result of audit.
3
    Processing errors were identified at the accepting activity.
4
    Administrative errors were identified at the DFAS payment office.
5
    The reimbursable portion of the MIPR was $1,235. The direct cite portion of the MIPR was not in the
      SBCCOM’s records.
6
    FY 2000 MIPRs are not dormant because the last transaction occurred less than 365 days from
     March 22, 2001.
7
    As of November 3, 2000.




                                                        23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Acquisition Initiatives
Director, Administration and Management

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                           24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         25
Washington Headquarters Services Comments




                     27
28
29
Team Members
The Contract Management Directorate, Office of the Assistant Inspector for Auditing of
the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are listed
below.

Garold E. Stephenson
Richard B. Jolliffe
Robert K. West
Terry L. McKinney
Eric B. Edwards
John R. Huddleston
LaVina N. Mensah
LaVerne M. Hunter
Ann L. Thompson
